 DOE/IG-0571




                               IDAHO SETTLEMENT
                              AGREEMENT ACTIVITIES
          AUDIT
         REPORT




                                      OCTOBER 2002




 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
                     U. S. DEPARTMENT OF ENERGY
                           Washington, DC 20585

                               October 9, 2002


MEMORANDUM FOR THE SECRETARY


FROM:                     Gregory H. Friedman (Signed)
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Idaho Settlement Agreement
                          Activities"


BACKGROUND

The task of cleaning up contaminated sites and disposing of radioactive waste, as reported in the
Department of Energy's recent Performance and Accountability Report, is one of the greatest
challenges the Department faces. The Department's effort is estimated to cost over $220 billion
for remediation activities at 114 separate sites, including waste stored at the Idaho National
Engineering and Environmental Laboratory (INEEL).

In 1995, as part of its agency-wide effort, the Department entered into a settlement agreement for
the management of spent nuclear fuel and radioactive waste at INEEL. Two of the near-term
milestones specified in the agreement were transferring Three-Mile Island spent nuclear fuel,
which had been stored at INEEL on an interim basis, to a new dry storage facility and shipping
certain transuranic (TRU) waste to the Waste Isolation Pilot Plant (WIPP). Specifically, under
the terms of the agreement, the Department agreed to: (1) move Three-Mile Island spent nuclear
fuel into a new dry storage facility by June 1, 2001, and (2) ship the first 3,100 cubic meters of
TRU waste out of the State by December 31, 2002.

The Idaho Operations Office budgeted about $39 million for the transfer of Three-Mile Island
spent nuclear fuel and estimated that it would cost $64 million to make the initial shipment of
waste from INEEL to WIPP. Given your concerns regarding the environmental management
program's cost and schedule, and parallel concerns by other interested parties, we conducted this
audit to determine whether the Department would meet the completion dates and cost
expectations incorporated in the settlement agreement.

RESULTS OF AUDIT

The Idaho Operations Office met the June 1, 2001, commitment for transferring Three-Mile
Island fuel to dry storage and is on track to meet the commitment for shipping 3,100 cubic meters
of transuranic waste from the State of Idaho. However, the Three-Mile Island fuel project
exceeded cost expectations by $18 million and the TRU waste project is expected to exceed cost
expectations by $150 million. Although events outside the Operations Office's control, such as
changes in permit requirements at WIPP, contributed to cost overruns, we found that weaknesses
in basic project management controls were also factors. Because of the overruns, the Department
has had to cancel, defer, or reduce the scope of other mission-critical work at INEEL.
                                              -2-


We made recommendations intended to help focus the Department's attention on key controls
for planning, executing, and evaluating current and future Environmental Management
projects. Our recommendations are consistent with the findings of the Department's Top-to-
Bottom review, which emphasized the need for more progress in applying the principles and
standards of performance associated with capital projects to operationally-funded projects for
waste management and environmental remediation.

MANAGEMENT REACTION

The Assistant Secretary of Environmental Management and the Acting Manager, Idaho
Operations Office concurred with our recommendations and initiated corrective actions.
Management comments are included in their entirety in Appendix 1.

Attachment

cc: Chief of Staff
    Under Secretary for Energy, Science and Environment
    Assistant Secretary for Environmental Management
    Manager, Idaho Operations Office
IDAHO SETTLEMENT AGREEMENT ACTIVITIES

TABLE OF
CONTENTS



               Settlement Agreement Commitments

               Details of Finding ....................................................................... 1

               Recommendations and Comments ........................................... 4


               Appendices

               Management Comments ............................................................ 5

               Prior Reports .............................................................................. 7

               Objective, Scope, and Methodology ........................................... 8
SETTLEMENT AGREEMENT COMMITMENTS

The Operations Office   The Idaho Operations Office met the Department's June 1, 2001,
Performance             commitment for transferring Three-Mile Island fuel to dry storage and
                        is on track to meet the commitment for shipment of transuranic (TRU)
                        waste. However, both projects exceeded cost expectations. For the
                        transfer of Three-Mile Island fuel to dry storage, the Department had
                        budgeted a total of $39 million. The project's actual cost, however, was
                        about $57 million, 46 percent more than expected. With regard to the
                        TRU waste shipments, the Department had estimated that all the waste
                        could be shipped for about $64 million. At the time of our review,
                        Idaho's revised estimate for shipping the entire 3,100 cubic meters of
                        TRU waste to the Waste Isolation Pilot Plant (WIPP) was $214 million,
                        more than triple the original estimate.

Contributing Factors    To an extent, factors beyond the Operations Office's control contributed
                        to the cost overruns on the projects. For example, construction of the
                        Three-Mile Island dry storage facility was delayed due to a change in
                        the application of industrial code requirements and the bankruptcy of a
                        subcontractor. As a result, the schedule for drying and moving Three-
                        Mile Island spent nuclear fuel had to be compressed and the project
                        went to a 24-hour a day, 7-day a week schedule. Although this change
                        enabled the Operations Office to meet the June 1, 2001, settlement
                        agreement commitment, it contributed to the increased costs of the
                        Three-Mile Island project. Additionally, delays in obtaining a Resource
                        Conservation and Recovery Act Part B permit at WIPP, and subsequent
                        modifications to the permit, increased costs for shipping TRU waste to
                        WIPP for disposal.

                        Aside from these external factors, however, we also noted weaknesses
                        in basic project management controls. For example, we found
                        problems with project plans, cost estimates, and project oversight that,
                        in our judgment, contributed to the cost overruns.


                                                      Project Plans

                        The original project plan for the Three-Mile Island project was not
                        timely or complete. To illustrate, the plan was not written until
                        November 1999, four years after the start of the project. Moreover,
                        when the project plan was completed, it did not contain key elements
                        such as technical considerations, life-cycle cost estimates, or detailed
                        descriptions of how the work would be accomplished. Consequently, in
                        October 2000, contractor management stated that it had to stand down
                        for two weeks in order to rebuild the project plan "from the ground up."
                        Although the plan was rewritten, management stated that an effective

Page 1                                                                        Details of Finding
         detailed work plan was not completed and implemented until
         December 2000, just months before the June deadline, and almost
         two years past the date of the first shipment.

         Similarly, when the original TRU waste plan was developed in 1996,
         it did not contain project schedules, scope baselines, organizational
         responsibilities and accountabilities, or a project control and
         reporting system. In 1997, an Office of Environmental Management
         review team found that the original plan was not an adequate
         management tool. After this review, the plan was revised several
         times. However, project management stated that it was not until
         2001 that specific metrics were added to the plan to better track the
         progress of shipping TRU waste to WIPP.

                                    Cost Estimates

         As evidenced by the significant cost growth, estimates for both the
         Three-Mile Island fuel project and TRU waste project were not
         adequately developed. In fact, for the Three-Mile Island project, the
         Operations Office did not develop a life-cycle cost estimate; rather,
         management simply budgeted a portion of operating funds to the
         effort annually, based on its estimate of project needs for that year.
         At our request, management determined that the total amount
         budgeted in this manner had been $39 million, covering the
         Operations Office's Fiscal Year (FY) 1996 through 2001 operating
         budgets. As noted, actual costs for meeting this milestone were
         almost 50 percent higher than the total budgeted amount. A life-
         cycle cost estimate could have, in this case, helped management to
         identify unexpected cost growth and might have prompted corrective
         actions or alternative strategies.

         The estimate for the TRU waste project – $64 million – was also
         inadequate. In this case, the estimate was not tied to a detailed work
         plan. In fact, the original estimate had no detailed analysis or
         breakdown showing key work segments and component costs. In
         addition, the estimate did not contain any contingency allowance to
         compensate for unknown factors that might increase the overall cost
         of the project. For example, one known risk, for which there was no
         contingency, was the risk that waste characterization requirements
         for WIPP may change. In 1999, when the requirements changed, the
         data to characterize 4,500 drums of waste (about 1,000 cubic meters)
         at the Operations Office was discarded. The Operations Office
         initially spent approximately $20 million to characterize this waste,
         and will have to redo this work to meet the newer requirements.

Page 2                                                     Details of Finding
                                                  Project Oversight

                        Finally, we noted that tasks associated with the Settlement
                        Agreement milestones were not subject to DOE Order 413.3,
                        Program and Project Management for Acquisition of Capital Assets,
                        because they were financed using operational, as opposed to capital,
                        funding. The order requires application of a number of project
                        management controls, including various tracking and oversight
                        systems, critical decision processes, and detailed work plans.
                        Moreover, capital projects subject to the order tend to receive
                        enhanced senior management scrutiny. As an example, the order
                        requires that "troubled" projects, in danger of not achieving
                        objectives or at risk for significant cost overruns, be included on the
                        Chief Operating Officer's "Watch List." Our observations in this
                        regard are consistent with findings of Environmental Management's
                        Top-to-Bottom review team, which also noted that operationally
                        funded projects could benefit, in many cases, from the enhanced
                        controls generally applied to capital projects.

Mission-Critical Work   As a result of cost overruns associated with the Three-Mile Island
Deferred                and TRU waste projects, the Department had to cancel, defer, or
                        reduce the scope of other mission-critical work. For example, in
                        October 2001 the Assistant Secretary for Environmental
                        Management postponed the shipment of spent nuclear fuel from the
                        West Valley Demonstration Project to the Idaho National
                        Engineering and Environmental Laboratory (INEEL), citing the need
                        to concentrate on meeting the commitment to ship 3,100 cubic
                        meters of TRU waste to WIPP. The delay will result in additional
                        costs such as retraining emergency crews in 11 states along the route.
                        Fuel shipments to INEEL will be rescheduled once the production
                        levels required to meet the settlement agreement with the State of
                        Idaho are achieved.

                        Also, in FY 2000 INEEL transferred about $390,000 from the
                        Irradiated Fuel Storage Facility maintenance fund to meet the
                        milestone for moving Three-Mile Island spent nuclear fuel. As a
                        result of the transfer of funds, INEEL deferred repairs to the
                        Irradiated Fuel Storage Facility Breathing Air System and eliminated
                        half of the corrective maintenance for process instruments and
                        cameras. The Irradiated Fuel Storage Facility is the principal
                        storage, consolidation, and staging area at the INEEL for the transfer
                        of spent nuclear fuel into dry storage. Thus, the movement of spent
                        nuclear fuel on site depends on the Irradiated Fuel Storage Facility
                        being in operation.

Page 3                                                                     Details of Finding
                   Finally, according to the Department of Energy Performance and
                   Accountability Report FY 2001, the Department did not meet its
                   Departmentwide FY 2001 goal to dispose of 2,425 cubic meters of
                   TRU waste at the WIPP, due largely to INEEL not meeting its goal
                   to ship 1,160 cubic meters in FY 2001.


RECOMMENDATIONS    We recommend that the Assistant Secretary for Environmental
                   Management apply the project management principles contained in
                   Order 413.3 to all projects, including operational projects.

                   We also recommend that the Manager, Idaho Operations Office
                   strengthen project management controls to ensure that:

                      a.   Project plans adequately define the work to be performed;
                           and,

                      b    Life cycle cost estimates are established before work begins,
                           including contingencies for unknown factors that could
                           result in additional costs.


MANAGEMENT AND     Management concurred with our recommendations to improve
AUDITOR COMMENTS   project management controls. The Office of Environmental
                   Management has taken actions to enforce vigor and visibility of
                   implementation of DOE Order 413.3 to all projects. In addition, the
                   INEEL contractor is implementing a planning process that identifies
                   the detailed work scope, schedule, and resources necessary to
                   complete a project. The Department's verbatim comments are
                   included as Appendix 1.

                   We consider management's comments and actions responsive to our
                   recommendations and the issues addressed in our report.




Page 4                                           Recommendations and Comments
Appendix 1




Page 5       Management Comments
Appendix 1 (continued)




Page 6                   Management Comments
Appendix 2

                                       PRIOR REPORTS



    • Waste Treatment Plans at the Idaho National Engineering and Environmental Laboratory
      (DOE/IG-0440, February 1999), concluded that the Department could have saved
      approximately $66 million by processing 3,100 cubic meters of TRU waste through the
      Advanced Mixed Waste Treatment Facility rather than using existing treatment and shipment
      processes.

    • Idaho Operations Office Mixed Low-Level Waste Disposal Plans (DOE/IG-0527, September
      2001), concluded that the Idaho Operations Office should not continue with plans to dispose
      of its mixed low-level waste at WIPP because its disposal plan was not updated and
      integrated with the Office of Environmental Management's disposal strategy. If the
      Department disposes of mixed low-level waste as transuranic waste, it would cost the
      Department millions more to execute this strategy and needlessly add additional waste
      volumes to the WIPP facility.




Page 7                                                                                   Prior Reports
Appendix 3

OBJECTIVE     The objective of this audit was to determine whether the Operations
              Office met the Department's commitment dates and cost
              expectations for the transfer of Three-Mile Island fuel and the
              shipment of 3,100 cubic meters of TRU waste.


SCOPE         The audit was performed from October 9, 2001, to June 1, 2002, at
              Idaho Operations Office and Bechtel BWXT Idaho, LLC offices in
              Idaho Falls, Idaho. The audit scope was limited to the projects
              established to comply with requirements of the settlement
              agreement with the State of Idaho for transferring Three Mile Island
              spent nuclear fuel into a new dry storage facility by June 1, 2001,
              and removing 3,100 cubic meters of transuranic waste from the
              State by December 31, 2002.


METHODOLOGY   To accomplish the audit objective, we:

                  • Obtained and reviewed planning documents for the activities
                    under audit;

                  • Researched Federal and Departmental regulations;

                  • Reviewed findings from prior audit reports regarding the
                    disposal of transuranic waste at the Waste Isolation Pilot
                    Plant;

                  • Researched the Office of Environmental Management Top-
                    to-Bottom Review Team Report, A Review of the
                    Environmental Management Program (February 2002);

                  • Assessed internal controls and performance measures
                    established under the Government Performance and Results
                    Act of 1993;

                  • Interviewed key personnel in the Operations Office and the
                    Office of Environmental Management; and,

                  • Evaluated performance and cost data for applicable projects.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations
              to the extent necessary to satisfy the audit objective.

Page 8                                    Objective, Scope, and Methodology
         Specifically, we tested controls with respect to the Department's
         planning process for waste management activities. Because our
         review was limited, it would not necessarily have disclosed all
         internal control deficiencies that may have existed at the time of our
         audit. We relied on automated data processing equipment to
         accomplish our audit objective. Specifically, we relied on the
         contractor's cost accounting system, and conducted tests to ensure
         reliability of the data.

         We held an exit conference with Environmental Management's
         Office of Project Completion and the Idaho Operations Office on
         September 24, 2002.




Page 9                                             Scope and Methodology
                                                                              IG Report No.: DOE/IG-0571

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
